No. 20-1158

In the Supreme Court of the United States
————
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Petitioner,
v.
WILL MCRANEY,
Respondent.
————
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

————
MOTION FOR LEAVE TO FILE AND
BRIEF FOR AMICI CURIAE THE ETHICS &
RELIGIOUS LIBERTY COMMISSION OF THE
SOUTHERN BAPTIST CONVENTION; THE
CHURCH OF JESUS CHRIST OF LATTER-DAY
SAINTS; THE NATIONAL ASSOCIATION OF
EVANGELICALS; THE LUTHERAN CHURCH –
MISSOURI SYNOD; CHURCH OF GOD IN
CHRIST, INC.; CHRISTIAN LEGAL SOCIETY;
JEWISH COALITION FOR RELIGIOUS LIBERTY;
AND THE ISLAM & RELIGIOUS FREEDOM
ACTION TEAM OF THE RELIGIOUS FREEDOM
INSTITUTE IN SUPPORT OF PETITIONER
————
ALEXANDER DUSHKU
R. SHAWN GUNNARSON
Counsel of Record
JAROM M. HARRISON
KIRTON | MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

MOTION FOR LEAVE TO
FILE BRIEF AS AMICI CURIAE
Pursuant to Supreme Court Rule 37.2(b), the Ethics
& Religious Liberty Commission of the Southern
Baptist Convention (ERLC), et al. respectfully move
to file the attached brief as amici curiae in support
of petitioner. All parties were timely notified of
our intent to file an amicus curiae brief. Counsel for
petitioner submitted a letter of blanket consent to the
filing of all amicus briefs, which is on file with the
Clerk of this Court. Counsel for respondents has not
responded to repeated requests for consent.
ERLC and the other religious organizations on this
brief represent some of the Nation’s largest faith
communities. They frequently participate as amici
in cases before this Court that raise issues of concern
to religious organizations. See, e.g., Br. Amici Curiae
Religious Denominations and Other Religious Institutions Supporting Pet’rs, Am. Legion v. Am. Humanist
Assoc., 139 S. Ct. 2067 (2019). Collectively, they offer
a distinct perspective on the questions presented and
the implications of this case for religious freedom
under the First Amendment. Because amici believe
that the attached brief will assist the Court in
deciding whether to grant the petition, they hereby
request leave to file this brief as amici curiae.

Respectfully submitted,
ALEXANDER DUSHKU
R. SHAWN GUNNARSON
Counsel of Record
JAROM M. HARRISON
KIRTON | MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae
March 18, 2021

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF ARGUMENT .............................

1

ARGUMENT ........................................................

5

REVIEW IS WARRANTED TO RESOLVE
WHETHER THE FIRST AMENDMENT
BARS
A
MINISTER’S
TORT
SUIT
CONTESTING HIS DISCHARGE AND
RELATED MATTERS ......................................

5

A.

The Fifth Circuit’s Departure From
The Church Autonomy Doctrine Holds
Exceptional Importance for Faith
Communities .............................................

5

Faith Communities Urgently Need The
Court To Resolve Whether The First
Amendment Bars Tort Suits By
Ministers Contesting Their Discharge
Along With Related Matters ....................

17

This Case Offers An Ideal Vehicle for
Resolving the Questions Presented..........

21

CONCLUSION ....................................................

23

B.

C.

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Agudath Israel of Am. v. Cuomo,
983 F.3d 620 (2d Cir. 2020) ......................

13

Bryce v. Episcopal Church in the Diocese of
Colo.,
289 F.3d 648 (10th Cir. 2002) ................... 1-2, 7
Corp. Presiding Bishop of The Church of
Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1986) ............................... 8, 16, 19
Franco v. The Church of Jesus Christ of
Latter-day Saints,
21 P.3d 198 (Utah 2001). ..........................

13

Himaka v. Buddhist Churches of Am.,
917 F.Supp. 698 (N.D. Cal. 1995) .............

14

Hosanna-Tabor Evangelical Church and Sch.
v. EEOC,
565 U.S. 171 (2012) ..................................passim
Hunter v. Bryant,
502 U.S. 224 (1991) ....................................

9

Hyung Jin Moon v. Hak Ja Han Moon,
431 F. Supp. 3d 394 (S.D.N.Y. 2019)........

13

Jones v. Wolf,
443 U.S. 595 (1979) ...................................

11

Kedroff v. St. Nicholas Cathedral,
344 U.S. 94 (1952) ....................................passim
Kreshik v. Saint Nicholas Cathedral of the
Russ. Orthodox Church of N. Am.,
363 U.S. 190 (1960) .................................. 6-7, 19

iii
TABLE OF AUTHORITIES—Continued
Page(s)
Larson v. Valente,
456 U.S. 228 (1982) ...................................

16

Mitchell v. Forsyth,
472 U.S. 511 (1985) ................................... 14-15
Mitchell v. Helms,
530 U.S. 793 (2000) ..................................

11

NLRB v. Catholic Bishop Chi.,
440 U.S. 490 (1979) ...................................

11

Nollan v. Cal. Coastal Comm’n,
483 U.S. 825 (1987) ...................................

21

Our Lady of Guadalupe v. Morrissey-Berru,
140 S. Ct. 2049 (2020) ..............................passim
Presbyterian Church in the U.S. v. Mary
Elizabeth Blue Hull Mem. Presbyterian
Church,
393 U.S. 440 (1969) ..................................passim
Serbian E. Orthodox Diocese for U.S. of
Am. & Can. v. Milivojevich,
426 U.S. 696 (1976) ..................................passim
Watson v. Jones,
80 U.S. (13 Wall.) 697 (1871) ...................passim
CONSTITUTION
U.S. Const. amend. I ...................................passim
OTHER AUTHORITIES
Carl H. Esbeck, The Establishment Clause
as a Structural Restraint on Governmental
Power, 84 Iowa L. Rev. 1 (1998) ...............

8

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Douglas Laycock, Church Autonomy
Revisited, 7 Geo. J.L. & Pub. Pol’y 253
(2009) ......................................................... 2, 16
Douglas Laycock, Towards a General
Theory of the Religion Clauses, 81 Colum.
L. Rev. 1373 (1981) ...................................

8

Encyclopedia of S. Baptists (Clifton J. Allen
ed., 1958) ...................................................

14

Iggerot ha-Rambam (D.H. Baneth ed.,
1946) ..........................................................

18

Sanford H. Cobb, The Rise of Religious
Liberty in America (1902) .........................

5

S. Baptist Convention, Baptist Faith and
Message 2000 ............................................

3

W. Cole Durham & Robert Smith, Religious
Organizations and the Law (2020) ........... 17, 18

INTERESTS OF AMICI CURIAE1
This case involves tort claims by a removed minister
against the entity tasked with missionary work in
North America by the Southern Baptist Convention.
Amici are churches and other religious organizations
with a substantial interest in the constitutional right
of faith communities to govern their own ecclesiastical
matters. Several amici have participated in previous
cases before this Court involving related issues under
the First Amendment. See, e.g., Our Lady of
Guadalupe v. Morrissey-Berru, 140 S. Ct. 2049 (2020);
Hosanna-Tabor Evangelical Church and Sch. v. EEOC,
565 U.S. 171 (2012) (unanimous). We submit this brief
out of concern that, without review, the Fifth Circuit’s
decision will severely undermine the freedom of faith
communities to govern their own religious affairs.
SUMMARY OF ARGUMENT
The First Amendment to the Constitution bars
judicial review of truly ecclesiastical matters like
ministerial employment, as well as church polity and
government. This doctrine of church autonomy2 is a
1

Pursuant to Supreme Court Rule 37.6, amici state that no
counsel for any party authored this brief in whole or in part
and that no entity or person, aside from amici, their members,
and their counsel, made any monetary contribution toward the
preparation or submission of this brief. Pursuant to Supreme
Court Rule 37.2, amici certify that counsel of record for all parties
received timely notice of amici curiae’s intent to file this brief.
2

Both the Fifth Circuit and the district court labeled this rule
the “ecclesiastical abstention doctrine.” see Pet. App. 1a, but that
nomenclature is mistaken. “Church autonomy doctrine” more
accurately expresses the idea that, unlike some forms of abstention, the First Amendment leaves courts no discretion to adjudicate ecclesiastical matters. See Bryce v. Episcopal Church in the
Diocese of Colo., 289 F.3d 648, 655 (10th Cir. 2002) (“This church

2
declaration of independence for churches and denominations, securing the freedom to govern their own
internal religious affairs. Unfortunately, the Fifth
Circuit’s decision here threatens that independence.
The court of appeals concluded that the church
autonomy doctrine does not bar Reverend Will
McRaney’s tort suit against The North American
Mission Board of the Southern Baptist Convention,
Inc. (NAMB). See Pet. App. 8a. Specifically, the court
of appeals held that McRaney’s complaint can be
resolved by applying “neutral principles of tort law,”
that discovery should proceed to determine whether
NAMB had “valid religious reason[s]” for the actions
McRaney contests, and that dismissal would be
“premature.” Pet. App. 5a, 8a, 2a.
That result is startling. McRaney admits that the
case originated as “a battle of power and authority
between two religious organizations”––both of them
Southern Baptist––over ministry strategy. Compl. 3.
As executive director of the Baptist Convention of
Maryland/Delaware (State Convention), McRaney
rejected a partnership agreement proposed by NAMB
that covered the “starting [of] new churches” and “the
selection … of church planters.” Id. at 4. Ultimately,
the impasse was resolved after the State Convention’s
governing board voted to remove McRaney. He then
sued NAMB.
autonomy doctrine prohibits civil court review of internal church
disputes involving matters of faith, doctrine, church governance,
and polity.”) (citations omitted); see also Douglas Laycock, Church
Autonomy Revisited, 7 Geo. J.L. & Pub. Pol’y 253, 254 (2009)
(“The essence of church autonomy is that the Catholic Church
should be run by duly constituted Catholic authorities and not by
legislators, administrative agencies, labor unions, disgruntled
lay people, or other actors lacking authority under church law.”).

3
McRaney seeks judicial relief for NAMB’s alleged
role in his ouster and for related actions.3 His tort suit
is a stealth attack on the Baptist form of church
government. Baptist ecclesiology means that spiritual
authority is vested with individual, autonomous
congregations that voluntarily join together in the
cooperative mission of spreading the gospel of Jesus
Christ. See S. Baptist Convention, Baptist Faith &
Message 2000 art. VI, available at https://bfm.sbc.
net/bfm2000/; see also id. at art. XIV (“Christ’s people
should, as occasion requires, organize such associations and conventions as may best secure cooperation
for the great objects of the Kingdom of God. Such
organizations have no authority over one another or
over the churches.”). McRaney’s claims invite federal
courts to sit in judgment on a religious community’s
internal dispute over cooperative ministry strategy.
And the Fifth Circuit’s refusal to dismiss his case
essentially makes federal courts arbiters of Baptist
doctrine, policy, and church government. Adjudicating
those matters inevitably violates the doctrine of
church autonomy.
The petition describes multiple reasons why review
is warranted. In addition, amici stress three points.
First, the conflicts between the Fifth Circuit’s
decision and this Court’s precedents hold enormous
importance for faith communities. Again and again,
this Court has affirmed that the First Amendment
bars judicial review of truly ecclesiastical matters like
church government, internal administration, and the
3

NAMB is right to say that McRaney directly challenges his
removal. Although he did not sue his employer, the State Convention, McRaney’s complaint “explicitly allege[s] that his
termination was caused by tortious interference and defamation
from the SBC Mission Board.” Pet. 22.

4
selection of ministers. Churches and other religious
organizations rely on that doctrine to secure their
freedom from government intrusion into the entire
range of religious activities. No one questions that
churches can be held liable for slip-and-fall accidents
or intentional torts causing physical harm. But the
decision below crosses the constitutional line by
ordering discovery and further proceedings to parse
what aspects of McRaney’s ministry dispute with
NAMB might be amenable to judicial review. Unless
this Court intervenes, the Fifth Circuit’s decision will
diminish the church autonomy doctrine and undermine the ministerial exception embraced in HosannaTabor, 565 U.S. at 171 and Our Lady of Guadalupe,
140 S. Ct. at 2049.
Second, the question reserved in Hosanna-Tabor—
whether the church autonomy doctrine bars judicial
review of an employment-related tort suit by a
minister against a religious organization—has gone
unresolved long enough. A decade has passed since
Hosanna-Tabor. Lower courts disagree how to answer
the question. And there is no constitutionally relevant
difference separating a tort suit from an employment
discrimination suit if both are aimed at adjudicating
ecclesiastical matters like a religious organization’s
selection of religious leaders. Because tort claims like
McRaney’s are all too common, the decision below will
inevitably deny all faith communities the freedom to
govern their own religious affairs.
Third, this case is an ideal vehicle to resolve the
questions presented. No threshold issues preclude
review on the merits. It is uncontested that McRaney
is a minister, that NAMB is a religious organization,
and that the complaint originated as “a battle of power
and authority between two religious organizations”

5
over Baptist ministry strategy. Compl. 3. The Fifth
Circuit addressed the questions presented. Additional
percolation is unhelpful and unwise. Lower courts are
already divided on the questions presented and the
implications of the decision below are patently
obvious. This Court should grant review to affirm that
the First Amendment bars judicial review of truly
ecclesiastical matters—even when those matters are
couched in the language of tort law.
ARGUMENT
REVIEW IS WARRANTED TO RESOLVE
WHETHER THE FIRST AMENDMENT BARS A
MINISTER’S TORT SUIT CONTESTING HIS
DISCHARGE AND RELATED MATTERS.
A. The Fifth Circuit’s Departure From The
Church Autonomy Doctrine Holds Exceptional Importance for Faith Communities.
The church autonomy doctrine, which bars judicial
review of truly ecclesiastical matters, is a firmly
established rule under the First Amendment.
Shortly after the Civil War, this Court held that
courts possess “no jurisdiction” to decide any matter
that is “ecclesiastical in its character.” Watson v.
Jones, 80 U.S. (13 Wall.) 697, 733 (1871). This doctrine
of church autonomy derives from the fundamental
principle that our constitutional order “has secured
religious liberty from the invasion of the civil authority.” Id. at 730; see also Sanford H. Cobb, The Rise
of Religious Liberty in America 12 (1902) (“[T]he
American principle asserts an entire independence
and separation, both as the Church might seek to
control the organic action of the state, and as the state
might affect to interfere with the faith or function
of the Church.”). Citing that principle, the Court

6
deferred to “the highest judicatory” of the Presbyterian Church, which had resolved an ecclesiastical
battle over church property in favor of an anti-slavery
faction in St. Louis. Watson, 80 U.S. at 734.
Church autonomy became a rule of constitutional
law in Kedroff v. St. Nicholas Cathedral, 344 U.S. 94
(1952). There, the Court concluded that the First
Amendment guarantees religious organizations the
“power to decide for themselves, free from state
interference, matters of church government as well as
those of faith and doctrine.” Id. at 116. So the Court
voided a state statute purporting to transfer the
authority to select an archbishop for New York City
from the Russian Orthodox Church in Moscow to the
church’s American branch. See id. at 121. By transferring religious authority, the statute “prohibit[ed] the
free exercise of an ecclesiastical right, the Church’s
choice of its hierarchy.” Id. at 120. It made no difference that deferring to the Russian Orthodox Church’s
choice effectively ceded control of New York real property to a person regarded by some church members as
“an arm of the Soviet state.” Id. at 127 (Jackson, J.,
dissenting). As the majority explained, “[e]ven in those
cases when the property right follows as an incident
from decisions of the church custom or law on ecclesiastical issues, the church rule controls. This under
our Constitution necessarily follows in order that
there may be free exercise of religion.” Id. at 121.
Later decisions consistently follow Kedroff in
denying judicial review of ecclesiastical matters. See,
e.g., Kreshik v. Saint Nicholas Cathedral of the Russ.
Orthodox Church of N. Am., 363 U.S. 190, 116 (1960)
(per curiam); Presbyterian Church in the U.S. v. Mary
Elizabeth Blue Hull Mem. Presbyterian Church, 393
U.S. 440, 447 (1969); Serbian E. Orthodox Diocese for

7
U.S. of Am. & Can. v. Milivojevich, 426 U.S. 696, 721–
22 (1976); Hosanna-Tabor, 565 U.S. at 186–87; Our
Lady of Guadalupe, 140 S. Ct. at 2060, 2061.
These decisions hold that the church autonomy
doctrine embraces every matter that is “ecclesiastical
in its character.” Watson, 80 U.S. at 733. Ecclesiastical
matters include at least six discrete areas of religious
activity: (1) the development and teaching of religious
doctrine, (2) a faith community’s ecclesiology or form of
church government, (3) administrative actions taken
by a recognized authority within a faith community,
(4) the appointment and removal of clergy and other
employees who carry out religious functions, (5) the
determination of who is admitted or expelled from
membership in a faith community, and (6) internal
communications by religious authorities about these
matters. See, e.g., Kedroff, 363 U.S. at 116 (the First
Amendment guarantees “freedom for religious organizations” to determine “matters of church government
as well as those of faith and doctrine”); Milivojevich,
426 U.S.at 710 (church autonomy includes “church
disputes over church polity and church administration”);
Our Lady of Guadalupe, 140 S. Ct. at 2060 (the
doctrine “protect[s] [religious organizations’] autonomy
with respect to internal management decisions that
are essential to the institution’s central mission”);
id. at 2060 (acknowledging the right to select clergy
and other “individuals who play certain key roles”);
Bryce, 289 F.3d at 658 n.2 (communications between
a minister and his parishioners are covered by the
church autonomy doctrine). In short, the First Amendment secures the freedom of faith communities to
“‘select their own leaders, define their own doctrines,
resolve their own disputes, and run their own
institutions.’” Corp. Presiding Bishop of The Church of
Jesus Christ of Latter-day Saints v. Amos, 483 U.S.

8
327, 341 (1986) (Brennan, J., concurring in the judgment) (quoting Douglas Laycock, Towards a General
Theory of the Religion Clauses, 81 Colum. L. Rev. 1373,
1389 (1981)).
The rule established by these decisions reflects the
combined force of both Religion Clauses of the First
Amendment. See Hosanna-Tabor, 565 U.S. at 182–85
(recounting the historical background of the Religion
Clauses). The Establishment Clause prohibits the
government from telling a church how to govern itself
in ecclesiastical matters. See id. at 180. At the same
time, the Free Exercise Clause prohibits the government from thwarting the church’s free choice in such
matters. See id.
The church autonomy doctrine operates as a rule,
not a balancing standard. Shutting the door to judicial
review of ecclesiastical matters reflects the nature of
the Establishment Clause as a structural barrier
dividing the powers of church and state.See Carl H.
Esbeck, The Establishment Clause as a Structural
Restraint on Governmental Power, 84 Iowa L. Rev. 1,
8–9 (1998). Hosanna-Tabor illustrates. Once the Court
determined that Cheryl Perich was a minister in the
constitutional sense, “the First Amendment require[d]
dismissal of [her] employment discrimination suit
against her religious employer.” Hosanna-Tabor, 565
U.S. at 194 (emphasis added). When asked to weigh
society’s interests in ending discrimination against a
religious institution’s interest in governing itself, this
Court did not pause. “[T]he First Amendment has
struck the balance for us.” Id. at 196.
The Fifth Circuit’s decision conflicts with these precepts. Although McRaney’s complaint directly assaults
NAMB for its alleged role in his removal, or contests

9
NAMB’s related actions, see Pet. 22, the court of
appeals declined to dismiss McRaney’s suit. Instead,
the panel concluded unconvincingly that dismissal
was “premature.” Pet. App. 2a. That refusal, and
the lower court’s rationale, clashes with Kedroff and
related decisions in at least three ways.
First, the court of appeals mistakenly recoiled
from applying the church autonomy doctrine on the
ground that it would allow religious organizations to
“immunize themselves from suits against them.” Id. at
8a. That concern is remarkably misplaced.
True, church autonomy operates much like sovereign immunity. When it applies, a court has no
discretion to proceed. Immediate dismissal is the only
permitted course. See Hosanna-Tabor, 565 U.S. at 194
(dismissing a minister’s employment discrimination
suit against her religious employer). Governments
demand that when legal immunity applies courts will
promptly dismiss the case. See Hunter v. Bryant, 502
U.S. 224, 227 (1991) (per curiam) (“[W]e repeatedly
have stressed the importance of resolving immunity
questions at the earliest possible stage in litigation.”).
Religious institutions deserve no less.
But the court of appeals was wrong to suggest that
invoking or applying the church autonomy doctrine is
somehow unseemly. It is the Constitution that denies
courts authority to adjudicate ecclesiastical matters.
In that sense, religious organizations are indeed
immunized from certain kinds of suits. The church
autonomy doctrine reflects the “special solicitude” that
the First Amendment accords religious institutions.
Hosanna-Tabor, 565 U.S. at 189. Applying that doctrine where appropriate manifests fidelity to the law—
not indifference to individual rights.

10
This case turns on whether McRaney’s complaint
involves ecclesiastical matters. See Watson, 80 U.S. at
733. It does. The Fifth Circuit erred by saying that
“McRaney is not challenging the termination of his
employment ….” Pet. App. 5a. Actually, the complaint
squarely challenges NAMB’s alleged role in McRaney’s
removal. It accuses NAMB of defamation for allegedly
disparaging his reputation, “resulting in his ultimate
termination.” Compl. 6. The complaint also charges
NAMB with intentional interference with business
relationships for allegedly “interfering with the contractual relationship existing between” McRaney and
the State Convention. Id. Faced with such claims, the
district court stated the obvious. “Considering all
the facts available to it, and not just those in the
complaint, the Court finds that this case would delve
into church matters.” Pet. App. 37a. Judge Ho and
Judge Oldham saw the same clash. See id. at 51a
(Ho, J., dissenting from denial of rehearing en banc)
(“[T]here’s no way to adjudicate this dispute without
violating the church autonomy doctrine.”); 63a (Oldham,
J., dissenting) (“This case should’ve ended with a
straightforward application of that doctrine.”). We
agree.
Second, the Fifth Circuit departed from this Court’s
decisions by declining to apply the church autonomy
doctrine on the dubious ground that McRaney’s
complaint can be adjudicated under “neutral principles
of tort law.” Pet. App. 5a. That conclusion is
unprecedented. Courts may decide church property
disputes through a “neutral-principles approach”
based on “objective, well-established concepts of trust
and property law.” Jones v. Wolf, 443 U.S. 595, 603
(1979). But the Court has never suggested that a
religious organization’s autonomy over its religious
affairs—especially the selection of its ministers—ends

11
where tort law begins. See Pet. App. 53a–57a (Ho, J.,
dissenting from denial of rehearing en banc). There’s
no “neutral-principles” carveout from the church
autonomy doctrine. Creating one would gravely compromise church autonomy and blow a gaping hole in
the ministerial exception.
Third, the Fifth Circuit turns settled precedent on
its head by ordering discovery into whether NAMB
had religious reasons for the actions McRaney
complains of. See Pet. App. 8a. That inquiry is offlimits. Under the First Amendment, “courts should
refrain from trolling through a person’s or institution’s
religious beliefs.” Mitchell v. Helms, 530 U.S. 793,
828 (2000) (citation omitted). Wary of trespassing into
areas of religious sensitivity, the Court has acknowledged that “the very process of [judicial] inquiry …
may impinge on rights guaranteed by the Religion
Clauses.” NLRB v. Catholic Bishop Chi., 440 U.S. 490,
502 (1979). The Fifth Circuit’s opposite course will
deprive NAMB of its First Amendment rights even if
it ultimately prevails.
That loss is especially objectionable when NAMB’s
reasons for its ecclesiastical actions are irrelevant.
Like the ministerial exception, the doctrine of church
autonomy “ensures that the authority to select and
control who will minister to the faithful … is the
church’s alone.” Hosanna-Tabor, 565 U.S. at 195–96.
Faith communities have the right to select leaders and
form internal partnerships—no matter what reasons
guide a particular choice. Discovery into its ministry
activities, actions, and communications that may have
affected McRaney’s removal by the State Convention
will force NAMB to defend ministry decisions that
courts have no authority to question.

12
The Fifth Circuit was too confident, perhaps, that
the district court can parse out secular elements from
McRaney’s claims. Pet. App. 5a–6a. That enterprise is
doomed. His allegations are inseparable from NAMB’s
right to choose how it cooperates with the State
Convention and, in turn, the State Convention’s right
to select key ministry personnel. Moreover, subjecting
ecclesiastical matters to minute legal analysis contravenes the “spirit of freedom for religious organizations”
radiated by Watson, Kedroff, and the Court’s other
decisions. Kedroff, 344 U.S. at 116.
The Fifth Circuit’s departures from this Court’s
decisions hold exceptional importance for faith
communities.
For them, few rules of constitutional law compare in
importance with the doctrine of church autonomy. It is
for religious institutions the keystone of religious
freedom. Dividing the powers of church and state
secures the freedom of faith communities to develop
their own doctrine, form their own communities, and
run their own institutions without governmental interference. Without these freedoms, faith communities
could not flourish.
This Court’s decisions show that preserving church
autonomy has safeguarded religious freedom for
many faiths. Presbyterian and Lutheran, Catholic,
and Orthodox communities—all have benefited. See
Watson, 80 U.S. at 681 (Presbyterian); Hull Church,
393 U.S. at 441–42 (same); Hosanna-Tabor, 565 U.S.
at 177 (Lutheran); Our Lady of Guadalupe, 140 S. Ct.
at 2055 (Catholic); Kedroff, 344 U.S. at 95–96 (Russian
Orthodox); Milivojevich, 426 U.S. at 698–99 (Serbian
Eastern Orthodox). All these have enjoyed constitutional shelter for their ecclesiastical affairs.

13
Lower court decisions demonstrate that church
autonomy has also safeguarded a diverse range of
minority faiths:


An Orthodox Jewish organization contested
New York’s limits on religious gatherings. The
Second Circuit cited church autonomy as a
reason for rejecting the state’s generalizations
about the health risks of religious worship. See
Agudath Isr. of Am. v. Cuomo, 983 F.3d 620,
633–34 (2d Cir. 2020) (quoting Our Lady of
Guadalupe, 140 S. Ct. at 2055).



The son of Unification Church leader Reverend
Sun Myung Moon sued his mother for judicial
confirmation that he was the rightful leader
of the church. The district court dismissed his
claim “as barred by the First Amendment.”
Hyung Jin Moon v. Hak Ja Han Moon, 431
F. Supp. 3d 394, 409 (S.D.N.Y. 2019).



A former member brought suit against The
Church of Jesus Christ of Latter-day Saints
for alleged injuries arising from counseling
she received from religious leaders. The Utah
Supreme Court dismissed her claims of negligence and breach of fiduciary duty. Central to
its reasoning was the principle that “civil tort
claims against clerics that require the courts to
review and interpret church law, policies, or
practices in the determination of the claims are
barred by the First Amendment ….” Franco v.
The Church of Jesus Christ of Latter-day Saints,
21 P.3d 198, 203 (Utah 2001).



An organization of Buddhist temples resisted
a discrimination suit by its former national
director, an ordained Buddhist minister. The

14
district court dismissed her claim of retaliation
under Title VII of the Civil Rights Act on
the ground that adjudicating that claim would
necessarily involve “judgments on matters of
faith and doctrine, as well as matters of general church governance.” Himaka v. Buddhist
Churches of Am., 917 F. Supp. 698, 709 (N.D.
Cal. 1995).
These and other faith communities stand to lose
precious First Amendment freedoms because of the
Fifth Circuit’s decision. Its refusal to dismiss McRaney’s
case means that churches and other religious institutions face the prospect of litigation over ecclesiastical
matters. That prospect will burden and distort the
exercise of religion. No denomination4 is free to govern
itself without state interference if it must answer to
a court for why a minister was removed from his
ministerial position or what administrative measures
were taken against him. Forcing NAMB to defend its
actions vis-à-vis the State Convention in court defeats
the purpose of the church autonomy doctrine. Like
other forms of immunity, the doctrine safeguards a
religious community not only from liability but from
the “burdens of litigation.” Mitchell v. Forsyth, 472
U.S. 511, 536 (1985). Each day this case persists is, by
itself, a denial of NAMB’s First Amendment rights.

4

For Baptists, the term denomination is somewhat imprecise.
Southern Baptist churches have created state conventions and a
national convention, all of which are autonomous. The national
convention in turn created NAMB. Baptists are therefore not
organized hierarchically but are rather “bound together by a
large measure of agreement with regard to doctrines and polity
and by a desire for cooperation among the various churches
holding these tenets.” 1 Encyclopedia of S. Baptists 360 (Clifton
J. Allen ed., 1958).

15
The loss of constitutional rights will only intensify
on remand. NAMB stands to endure discovery into its
religious affairs. It potentially stands to incur the cost
of a final judgment against it, as well as the stigma
associated with a judicial decision concluding that
NAMB acted wrongly when carrying out its
ecclesiastical activities. Punishing NAMB for its
exercise of religion and declaring its governance of
ecclesiastical matters wrongful would doubly offend
the First Amendment. See Hosanna-Tabor, 565 U.S.
at 188 (“Requiring a church to accept or retain an
unwanted minister, or punishing a church for failing
to do so … interferes with the internal governance of
the church ….”). Immediately at risk is the genuine
independence of Southern Baptist institutions.
It makes no difference that NAMB and the State
Convention are separate legal entities when both are
tasked with serving Southern Baptist churches in
the same denomination. The First Amendment bars
judicial review of ecclesiastical controversies from the
same faith community regardless of how those matters
arise and regardless of how the faith community
is organized. Kedroff established that point long ago.
See 363 U.S. at 115 (acknowledging that the dispute
between Russian- and American-led factions of the
Russian Orthodox Church is “strictly a matter of
ecclesiastical government”).
Nor does it matter that the Southern Baptist Convention is governed by its churches. The Baptists’
choice of church government can have no bearing on
NAMB’s rights. That choice presents “an issue at the
core of ecclesiastical affairs.” Milivojevich, 426 U.S. at
721. Courts must defer to NAMB’s ecclesiastical posi-

16
tion as understood within the Baptist community.
Judge-made categories like congregational or hierarchical may not supplant the form of church government freely chosen by those practicing the Baptist
faith. See Douglas Laycock, 7 Geo. J.L. & Pub. Pol’y at
258 (“Differences in church governance reflect deep
theological disagreements” and “[r]eligious liberty
includes the right to choose from among these forms of
church organization”).
Giving NAMB less deference because of the Baptist
form of governance than if NAMB and the State
Convention belonged to a single legal entity whose
internal organization was strictly hierarchical offends
both Religion Clauses. Discriminating against NAMB
because of Baptist beliefs about church polity defies
“[t]he clearest command of the Establishment Clause.”
Larson v. Valente, 456 U.S. 228, 244 (1982). It likewise
burdens the Baptists’ chosen form of church governance contrary to the Free Exercise Clause. See Kedroff,
344 U.S. at 116 (acknowledging that the right of free
exercise encompasses “matters of church government”).
Faith communities have reason to find this case
extremely troubling. Religious beliefs about church
government and church policy may be distorted
even by the prospect of litigation. See Amos, 483 U.S.
at 336 (“Fear of potential liability might affect the way
an organization carried out what it understood to be
its religious mission.”). Besides, the decision below
risks “inhibiting the free development of religious
doctrine and of implicating secular interests in
matters of purely ecclesiastical concern.” Hull Church,
393 U.S. at 449.
These intolerable burdens on religious freedom will
follow from the decision below unless this Court grants
review.

17
B. Faith Communities Urgently Need The
Court To Resolve Whether The First
Amendment Bars Tort Suits By Ministers
Contesting Their Discharge Along With
Related Matters.
Hosanna-Tabor held that the ministerial exception
bars “an employment discrimination suit brought on
behalf of a minister, challenging her church’s decision
to fire her.” 565 U.S. at 196. The Court reserved
the question “whether the exception bars … actions
by employees alleging … tortious conduct by their
religious employers.” Id. NAMB asks the Court to take
up that question now. We agree that the time is ripe.
Nearly a decade has passed since Hosanna-Tabor.
Lower courts have divided over the validity of tort
suits like the discrimination suits subject to the
ministerial exception. See Pet. 24–32. Further percolation is neither necessary nor wise. Judge Oldham
endorsed that question as important. Pet. App. 77a.
Amici agree. Discharged ministers often raise tort
claims in response to their dismissal. See 2 W. Cole
Durham & Robert Smith, Religious Organizations and
the Law § 14:54 (2020) (“Wrongful termination claims
are often joined with claims of common law torts such
as defamation and intentional or negligent infliction
of emotional distress.”). McRaney’s claims of tortious
interference with business relationships, intentional
infliction of emotional distress, and defamation are
commonplace. See id.5
5

Defamation poses an acute threat to church autonomy.
Religious disputes are often marked by jarring rhetoric, as an
incident from the life of Maimonides illustrates. When censuring
another man’s Talmudic commentaries, he asked “why should

18
The same constitutional logic that supports the
ministerial exception justifies review and reversal
here. Adjudicating a minister’s tort claims against a
religious institution, based on disputes over church
policy and church government, bears the same constitutional defects as adjudicating an employment
nondiscrimination claim. In either instance, adjudication “interferes with the internal governance of
the church, depriving the church of control over the
selection of those who will personify its beliefs.”
Hosanna-Tabor, 565 U.S. at 188. The prospect of
official interference in ecclesiastical matters—not the
source of law fueling that interference––should be the
decisive factor under the First Amendment. See id.
Repeatedly, this Court has voided statutes to the
extent that they authorize judicial interference with
truly ecclesiastical matters. New York could not
transfer ecclesiastical authority, even to avoid the
prospect of Communist subversion. See Kedroff, 344
U.S. at 117–18. Nor could a disabled minister obtain
relief for her discharge under the Americans with
Disabilities Act. See Hosanna-Tabor, 565 U.S. at 196.
Judge-made law is no less subject to the same
constitutional limitation. Watson, 80 U.S. at 734;
Kreshik, 363 U.S. at 116; Hull Church, 393 U.S. at 447;
Milivojevich, 426 U.S. at 721–22. But under the Fifth
Circuit’s logic, a constitutional rule powerful enough
to bar discrimination claims under civil rights law, see
Hosanna-Tabor, 565 U.S. at 196, cannot withstand
I pay attention to an old man who is really miserable,
an ignoramus in every respect?” Letter from Moses b. Maimon to
Joseph b. Judah, in Iggerot ha-Rambam 54 (D.H. Baneth ed.,
1946) (emphasis added). However harsh, such language is not
amenable to judicial review when it addresses religious
controversy.

19
ordinary tort claims. A more perverse outcome would
be difficult to imagine.
The Fifth Circuit’s holding that McRaney’s complaint merely requires the district court “to apply
neutral principles of tort law” invites unprecedented
and unbounded incursions into church autonomy. Pet.
App. 5a. Virtually anything that a religious organization does in an ecclesiastical dispute can be reframed
as a tort. Statements during a “theological controversy”
can be described as defamation; actions taken to mete
out “church discipline” or to maintain “the conformity
of the members of the church to the standard of morals
required of them” can be relabeled as the intentional
infliction of emotional distress; and decisions intended
to preserve a religiously inspired form of “ecclesiastical government” through the removal of an unwanted
minister can be shoehorned into a claim for tortious
interference with business relations. Watson, 80 U.S.
at 733. Allowing such claims would mean the end of
religious freedom for faith communities.
Nor is there any reason to believe that a tort-law
exception to the church autonomy doctrine could be
readily administered under a “neutral principles”
approach. Courts will find it no easier to discern the
precise boundary separating religious from secular
elements in this context than finding that line under
Title VII. See Amos, 483 U.S. at 336 (explaining that
the line between an employee’s religious and secular
activities “is hardly a bright one”). Errors, which are
inevitable, come at the expense of religious freedom.
See Hull Church, 393 U.S. at 449 (warning
of judicial review that risks “inhibiting the free
development of religious doctrine and of implicating

20
secular interests in matters of purely ecclesiastical
concern”).
That McRaney has sued a Southern Baptist religious organization other than his employer has no
bearing on the application of the church autonomy
doctrine. The First Amendment bars judicial review
of truly ecclesiastical matters regardless of whether
the defendant is a minister’s employer. McRaney’s
complaint against NAMB stems from an intradenominational contest over church policy and church
government. Under the Constitution, his attempt to
bring plainly ecclesiastical matters into court is the
critical fact.
Indeed, McRaney’s decision to sue NAMB instead
of his employer only succeeds in making the constitutional violation more serious and widespread. If a
court had denied the church autonomy doctrine only
as touching the State Convention’s discharge of
McRaney, that decision would affect an organization
that comprises 560 churches in Maryland and Delaware. But by denying the church autonomy doctrine
with respect to NAMB, the Fifth Circuit affects an
organization with responsibilities toward thousands of
churches in the entire Southern Baptist denomination. By the same principle, a discharged Catholic
priest can sue a diocese and win even if he would have
lost the same suit against his parish employer.
National religious organizations from many faith
communities, which often influence local ministerial
employment decisions, will face novel litigation risks
because of the lower court’s faulty analysis.
Finally, the Fifth Circuit’s neutral-principles holding seriously undermines the ministerial exception.
Simple torts can be expected to replace nondiscrimination suits as the instrument of choice for aggrieved

21
ministers. That would allow civil courts to do exactly
what this Court’s precedents forbid––to compel a
religious institution to reinstate a discharged minister
or to impose money damages as a penalty for his or her
discharge. See Hosanna-Tabor, 565 U.S. at 188. In this
way, the First Amendment would be reduced to little
“more than a pleading requirement, and compliance
with it to be [little] … more than an exercise in
cleverness and imagination.” Cf. Nollan v. Cal.
Coastal Comm’n, 483 U.S. 825, 841 (1987).
C. This Case Offers An Ideal Vehicle for
Resolving the Questions Presented.
No threshold obstacles like standing preclude review on the merits. Indeed, the essential facts necessary for review are undisputed. Reverend McRaney is
an ordained Baptist minister. Both NAMB and the
State Convention are Southern Baptist religious
organizations. See Pet. 3. And McRaney’s complaint
contests NAMB’s role in his removal along with its
other actions in response to their dispute over church
policy and church government. See Compl. at 6.
The questions presented have been thoroughly
ventilated in the lower courts. Both the district
court and the Fifth Circuit panel squarely addressed
NAMB’s assertion of church autonomy. See Pet. App.
1a, 26a, 37a. That panel decision was presented to the
entire court of appeals for consideration. Although
a bare majority of the court of appeals denied en banc
review, Judge Ho and Judge Oldham authored
detailed and thoughtful opinions in dissent. See Pet.
App. 45a, 63a.
The Fifth Circuit’s decision holds implications that
are uncommonly clear. NAMB will endure discovery
and further judicial proceedings, all of which robs it of

22
rights this Court has said the First Amendment
guarantees. Even if NAMB ultimately prevails, it will
have to endure judicial inquiries into its religious
decision-making. Other faith communities will learn
from NAMB’s experience that, at least in the Fifth
Circuit, the church autonomy doctrine is less reliable
than this Court’s precedents say. Denying review here
could induce some faith communities to make internal
management decisions with one eye toward the
prospect of judicial review. Religious doctrine and
canons of church government would then be distorted
or even supplanted by perceived litigation risk.
Additional percolation is pointless and unwise.
Lower courts are already in substantial disarray over
the questions presented. See Pet. 24–33. Allowing
further lower-court decision-making will not clarify
the issues. Even if lower courts were not divided,
review is warranted to resolve an outstanding
question raised in Hosanna-Tabor—whether the First
Amendment bars a tort suit by a minister who contests
his discharge and related actions of a religious organization. We are convinced that the same reasoning that
swayed the Court there ought to prevail here. Because
the Constitution safeguards the right of religious
organizations to select their own leaders and manage
their own internal religious affairs, the First Amendment precludes McRaney’s suit.
*

*

*

We end where we began—with the settled rule
that the First Amendment bars judicial review of
truly ecclesiastical matters like ministerial employment
and disputes over church policy and government.
Reverend McRaney’s complaint unmistakably falls
within that rule. His attempt to hold NAMB legally

23
responsible for his termination and for other administrative actions in response to his dissent over ministry
strategy challenges NAMB’s ability to carry out its
religious mission. The Fifth Circuit’s decision is a
misstep with serious implications. It departs from this
Court’s precedents and offers an opportunity to resolve
the validity of ministerial employment-related tort
suits—an issue reserved in Hosanna-Tabor. The questions presented are exceptionally important to faith
communities like amici. We therefore urge the Court
to grant review.
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
ALEXANDER DUSHKU
R. SHAWN GUNNARSON
Counsel of Record
JAROM M. HARRISON
KIRTON | MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae
March 18, 2021

